Supreme Court Of The Anited States

NO.

Haritha Samaranayake, Jere Pikkarainen,
Ann-Marie Maatta And Seppo Y1a-
Herttuala, Petitioners,

Vv.

The Honorable Andrei Iancu, in his official
capacity as Under Secretary Of Commerce
For Intellectual Property and Director Of
The United States Patent And Trademark
Office, Respondent.

I, J. Mark Pohl, counsel of record for Petitioners Haritha Samaranayake, Jere
Pikkarainen, Ann-Marie Maatta And Seppo Yla-Herttuala, and a member of the
Bar of this Court, hereby certify that on January 4*, 2021 I served three (3) copies
of the Petition for a Writ of Certiorari in the above-referenced case by first-class
mail, postage prepaid, upon the counsel for Respondents as listed below:

Jeffrey B. Wall, Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2203
SupremeCtBriefs@usdoj.gov

All parties required to be served have been served. I declare under penalty of
perjury that the foregoing is true and correct. Executed as of January 4, 2021.

 

J. Matk/Pohl

Pharmaceutical Patent Attorneys, LLC
55 Madison Avenue, 4 Floor
Morristown, NJ 07960-7397

(978) 984-6159 x304
Mark.Pohl@LicensingLaw.Net

 

Counsel for Petitioners
